   U.S. ELECTION ASSISTANCE COMMISSION 

        OFFICE OF INSPECTOR GENERAL





                        FINAL REPORT:
              U.S. ELECTION ASSISTANCE COMMISSION


             COMPLIANCE WITH THE REQUIREMENTS OF

      THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT

                       FISCAL YEAR 2010




NO. I-PA-EAC-02-10
OCTOBER 2010
                          U.S. ELECTION ASSISTANCE COMMISSION

                                  OFFICE OF INSPECTOR GENERAL

                                 1201 New York Ave. NW - Suite 300 

                                       Washington, DC 20005





                                                                                  October 27, 2010


Memorandum

To:         	Donetta Davidson
             Chair, U.S. Election Assistance Commission

From:	      Curtis W. Crider
            Inspector General

Subject:    Final Report –U.S. Election Assistance Commission’s Compliance with the
            Requirements of the Federal Information Security Management Act (Assignment No.
            I-PA-EAC-02-10)

       We contracted with the independent certified public accounting firm of Leon Snead &
Co. (LSC) to conduct the audit of the U.S. Election Assistance Commission’s (EAC) compliance
with the requirements of the Federal Information Security Management Act (FISMA). LSC
found that EAC information technology security program is in substantial compliance with
FISMA. The audit noted that EAC took actions to address control weaknesses identified in the
2009 FISMA audit. However, EAC still needs to complete corrective action in two areas: (1)
The agency’s contingency planning and testing, and (2) compliance with Personal Identification
Information and Privacy Act requirements.

        In its October 8, 2010 response to the draft report (Attachment 2) the EAC generally
concurred with the recommendations and provided the actions planned to address the issues
identified in the report. Based on the response we consider the recommendations in the report
resolved but not implemented. The OIG will monitor the implementation of the
recommendations.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all reports issued, actions taken to implement
recommendations, and recommendations that have not been implemented. Therefore, this report
will be included in our next semiannual report to Congress.

         If you have any questions regarding this report, please call me at (202) 566-3125.
U.S. Election Assistance Commission
       Compliance with the Requirements of

 the Federal Information Security Management Act


                  Fiscal Year 2010





                     Submitted By


               Leon Snead & Company, P.C.

  Certified Public Accountants & Management Consultants
LEON SNEAD                                                                                       C<>1ified Public Accountants
                                                                  & Managemenl
& COMPANY, P.C. ______________________________________________________     ____Consultal1ts
                                                                                    ___                 ~




416 Hungerford Drive , Suite 400
Roch;lIe. Mar),land 20850
301·738·8190
fax: 301·738·8210
leonsnead.companypc@erols.com




                                                               October 12, 20 I 0




             Mr. Curtis W. Crider
             Inspector General
             U.S. Election Assistance Commission
             1440 New York Ave, N.W. , Suite 203
             Washington, DC 20005


             Dear Mr. Crider:

             Enclosed is the final report on our audit of U.S. Election Assistance Commission's compliance
             with the Federal Information Security Management Act for fiscal year 2010.

             We appreciate the courtesies and cooperation provided by EAC personnel during the audit.




                                                                '~ ~~C'2>II1;4f1 P,? fJc
                                                                Leon Snead & Company, P.C.
                                                    TABLE OF CONTENTS





                                                                                                                                            Page


Introduction ......................................................................................................................................1

Objective, Scope and Methodology .................................................................................................1

Summary of Audit............................................................................................................................2

Findings and Recommendations ......................................................................................................3

Attachment 1 – Status of Prior Year Findings .................................................................................6

Attachment 2 – Response to Audit ..................................................................................................7




Leon Snead & Company, P.C.                                               i
Introduction

Leon Snead & Company, P.C. has completed its audit of EAC’s Information Technology (IT)
security program for fiscal year 2010.

Title III of the E-Government Act, entitled the Federal Information Security Management Act
(FISMA) requires each Federal agency to develop, document, and implement an agency-wide
program to provide security for information and information systems that support the operations
and assets of the agency, including those systems managed by another agency or contractor.
FISMA, along with the Paperwork Reduction Act of 1995 and the Information Technology
Management Reform Act of 1996, emphasize a risk-based policy for cost-effective security. In
support of and reinforcing this legislation, the Office of Management and Budget (OMB)
through Circular A-130, Management of Federal Information Resources, Appendix III, Security
of Federal Automated Information Resources, requires executive agencies within the Federal
government to:

   •	   Plan for security;
   •	   Ensure that appropriate officials are assigned security responsibility;
   •	   Periodically review the security controls in their information systems; and
   •	   Authorize system processing prior to operations and, periodically, thereafter.

The EAC is an independent, bipartisan agency created by the Help America Vote Act (HAVA)
to assist in the effective administration of Federal elections. In October 2002, Congress passed
HAVA to invest in election infrastructure and set forth a comprehensive program of funding,
guidance, and ongoing research. To foster those programs and to promote and enhance voting
for United States Citizens, HAVA established the EAC.

EAC’S mission is to assist in the effective administration of Federal elections. The agency is
charged with developing guidance to meet HAVA requirements, adopting voluntary voting
systems guidelines, and serving as a national clearinghouse of information about election
administration. EAC also accredits testing laboratories and certifies voting systems and audits
the use of HAVA funds.

Objective

The objective of our audit was to evaluate EAC’s compliance with OMB Circular A-130 and
FISMA requirements.

Scope and Methodology

To accomplish the objective, we reviewed EAC policies and procedures, and performed tests to
determine whether:

   •	 EAC policies and procedures were adequate to establish an agency-wide IT security
      program in accordance with OMB requirements.




Leon Snead & Company, P.C.	                      1
   •	 EAC personnel assessed the risk to operations and assets under their control, assigned a
      level of risk to the systems, tested and evaluated security controls and techniques,
      implemented an up-to-date security plan for each major application and general support
      system, and performed certification and accreditation of the agency’s systems.
   •	 EAC developed, documented, and tested comprehensive contingency plans for the

      agency’s information systems.

   •	 EAC provided security awareness training to all employees and contractors, and provided
      sufficient specialized training to key IT security personnel.
   •	 EAC established a continuous monitoring program, including whether the agency

      monitored scanning results and corrected vulnerabilities, as necessary.

   •	 EAC designed and implemented access controls effectively.
   •	 EAC met OMB requirements for securing sensitive personal identifying information and
      Privacy Act requirements.

The audit was performed in accordance with Government Auditing Standards, and included
appropriate tests necessary to achieve the audit objective. Other criteria used in the audit
included the National Institute of Standards and Technology (NIST) guidance, and OMB
Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, dated April 21, 2010.

Summary of Audit

While the EAC IT security program is now in substantial compliance with FISMA, the agency
remained at risk for a substantial portion of 2010. Our audit found that EAC had implemented
actions to address control weaknesses identified in our 2009 report except for: (1) the testing and
exercise of the recently completed contingency plan; and (2) compliance with required OMB PII
and Privacy Act controls. EAC delayed implementation of planned corrective actions until it
hired a Chief Information Officer (CIO) about June 2010. As a result, many of the weaknesses
identified in 2009 continued for a significant portion of the 2010 fiscal year.

EAC officials in a response to the draft report advised that the agency is committed to
establishing and maintaining an agency-wide program to provide security for information and
information systems that support the operations and assets of the agency, including those systems
managed by another agency or contractor. EAC officials advised that as part of this effort, EAC
hired a Chief Information Officer (CIO) and developed, documented, and implemented its
agency-wide Information Security Program. EAC officials agreed with the recommendations to
complete the EAC contingency plan by the end of the calendar year, and update the contingency
plan based on the results of testing, and to bring the EAC into full compliance with OMB PII
regulations and Privacy Act requirements. The agency plans to be in full compliance by the end
of the calendar year 2010.




Leon Snead & Company, P.C.	                      2
FINDINGS AND RECOMMENDATIONS

1. IT Security Program Improved but Additional Controls are Necessary

   EAC has corrected most of the significant control weaknesses identified during our audit in
   2009 that impacted the agency’s IT security program. While the EAC IT security program is
   now in substantial compliance with FISMA, the agency was at risk for a substantial portion
   of fiscal year 2010. The agency delayed completion of corrective actions until the CIO was
   hired in about June 2010. Also, EAC has not yet completed required actions to test the
   newly completed contingency plan, or implemented controls for compliance with PII and
   Privacy Act requirements.

   As part of our audit, we assessed whether EAC had taken action to address the problems we
   identified in 2009 with the agency’s agency-wide IT security program. For each of the
   security control areas established by Federal Information Processing Standards (FIPS) 200,
   Minimum Security Requirements for Federal Information and Information System, we
   determined if actions taken by EAC brought the agency into substantial compliance with the
   control requirements contained in NIST Special Publication (SP) 800-53, Recommended
   Security Controls for Federal Information Systems and Organizations. The table below
   shows our determinations for 2010.

            CONTROL REQUIREMENT                                      Compliance Determination
            Access Control                                           Substantial Compliance
            Awareness and Training                                   Substantial Compliance
            Audit and Accountability                                 Substantial Compliance
            Certification, Accreditation, and Security Assessments   Substantial Compliance
            Configuration Management                                 Substantial Compliance
            Contingency Planning                                     Partial Compliance
            Identification and Authentication                        Substantial Compliance
            Incident Response                                        Substantial Compliance
            Maintenance                                              Substantial Compliance
            Media Protection                                         Substantial Compliance
            Physical and Environmental Protection                    Substantial Compliance
            Planning                                                 Substantial Compliance
            Personnel Security                                       Substantial Compliance
            Risk Assessment                                          Substantial Compliance
            System and Services Acquisition                          Substantial Compliance
            System and Communications Protection                     Substantial Compliance
            System and Information Integrity                         Substantial Compliance


   As noted above, we rated the contingency planning as partial compliance because the plan
   was only recently completed and has not yet undergone testing. EAC has developed testing
   and exercise plans, and once these tests are completed, analyzed, and any necessary
   adjustments made to the plan, EAC will be in compliance with this control area.



Leon Snead & Company, P.C.                            3
   In our 2009 audit, we reported that EAC was not in compliance with OMB requirements
   dealing with securing PII data and certain requirements of the Privacy Act. We performed
   audit tests to determine whether EAC had taken actions to come into substantial compliance
   with these requirements. EAC’s privacy officer advised us that the agency was moving to
   come into full compliance with OMB and Privacy Act requirements, but all actions are not
   yet completed. The following table shows the 2009 problem areas, the actions EAC has
   taken, and those areas where additional corrective actions are necessary.

     OMB              Requirement                      EAC Actions in 2010              Auditor Comments
     Guidance
     M-07-16, dated   Requires agency to develop       EAC has published a policy       EAC meets requirement.
     May 22, 2007     and implement a breach           on this matter.
                      notification.
                      Review current PII               EAC completed a review in        EAC meets requirement.
                      holdings and determine if        2010, and has taken actions to
                      holdings are accurate,           reduce holdings.
                      relevant and reduce the PII
                      holdings to minimum
                      necessary.
                      Encrypt data on mobile           EAC has purchased encrypted      EAC meets requirement.
                      computers.                       drives, and does not maintain
                                                       PII data on Hard Drive.
                      Require two-factor               EAC was required by GSA to       EAC meets requirement.
                      authentication.                  implement this requirement.

                      Require all personnel with       EAC has training and requires    EAC meets requirement.
                      access to PII to sign at least   personnel to authenticate
                      annually a document that         security awareness and
                      describes rules of behavior      privacy training.
                      on PII.
                      Develop and publish a            EAC has a internal policy but    EAC is not in full
                      “routine use” policy dealing     has not published a “routine     compliance with this
                      with breach of security          use” policy in the federal       area.
                      relating to PII data,            register
                      including actions taken for
                      individuals affected by the
                      breach.
     OMB Circular     Publish and review               EAC has not yet published its    EAC is not in full
     A-130            biennially each system of        system of records.               compliance with this
                      records notice to ensure                                          area.
                      that it accurately describes
                      the system of records.
                      Review every four years          EAC has not yet published its    EAC is not in full
                      the routine use disclosures      system of records.               compliance with this
                      associated with each system                                       area.
                      of records in order to
                      ensure that the recipient's
                      use of such records
                      continues to be compatible
                      with the purpose for which
                      the disclosing agency
                      collected the information.



Leon Snead & Company, P.C.                              4
      OMB             Requirement                    EAC Actions in 2010          Auditor Comments
      Guidance
      OMB             Conduct privacy impact         EAC has not yet completed    EAC is not in full
      Memorandum      assessments for electronic     this assessment.             compliance with this
      03-22           information systems and                                     area.
                      collections and, in general,
                      make them publicly
                      available.

                      Post privacy policies on       EAC has posted on website.   EAC meets requirement.
                      agency websites used by
                      the public.


   EAC has written policies and procedures, and developed and implemented necessary controls
   to bring its IT security program, as of the end of fiscal year 2010, into substantial compliance
   with FISMA requirements. As discussed above, EAC needs to continue to take actions to
   bring itself into compliance with OMB directives dealing with PII and Privacy Act
   requirements. At the end of 2010, EAC has developed a foundation for its IT security
   program that, as its IT operations mature, will enable EAC to sustain compliance with
   FISMA requirements.

   Recommendations:

   1.	 Assure that the testing and exercise of the recently completed EAC contingency plan is
       accomplished by the end of the calendar year. Update the plan based upon the results of
       this testing.

   2.	 Emphasize the completion of actions necessary to bring the EAC into full compliance
       with OMB PII regulations and Privacy Act requirements.

   Agency Response

   The Executive Director, in a response to the draft report, advised that the agency is
   committed to establishing and maintaining an agency-wide program to provide security for
   information and information systems that support the operations and assets of the agency,
   including those systems managed by another agency or contractor. The Executive Director
   advised that as part of this effort, EAC hired a Chief Information Officer (CIO) and
   developed, documented, and implemented its agency-wide Information Security Program.

   EAC officials agreed with the recommendations to complete the EAC contingency plan by
   the end of the calendar year, update the contingency plan based on the results of testing, and
   to bring the EAC into full compliance with OMB PII regulations and Privacy Act
   requirements. The agency plans to be in full compliance by the end of the calendar year
   2010.




Leon Snead & Company, P.C.	                           5
                                                                                                     Attachment 1



    Status of Prior Year Findings

No.      Prior Year Condition                                     Current Status


         IT Security Program Improved but Additional Controls     EAC officials took action to correct this
1        are Necessary.                                           problem.
         An agency-wide information security program in           EAC officials took action to correct this
2        compliance with FISMA has not been developed. A          problem.
         security management structure with adequate
         independence, authority, and expertise which is
         assigned in writing has not been implemented.

3        Policies or procedures for information security or       EAC officials took action to correct this
         privacy management have not been developed. Per the      problem.
         terms of the MOU, the GSA procedures will prevail
         where there are not guiding policies provided by the
         user organization.

4        A Continuity of Operations Plan, Disaster Recovery       EAC has completed a contingency plan, but has
         Plan, or Business Impact Assessment has not been         not yet tested the plan.
         developed.
5        FDCC requirements were not met.                          EAC officials took action to correct this
                                                                  problem.
6        Access Controls and Remote Access Need                   EAC officials took action to correct this
         Strengthening                                            problem.
7        Security Risk Assessments Need to be Finalized and       EAC officials took action to correct this
         Used to Develop Controls                                 problem.

8        EAC is not fully compliant with several Privacy Act      EAC officials took action to correct some but
         Requirements including:                                  not all of these problems. Issue remains open.
         • A Chief Privacy Officer with the responsibility for
            monitoring and enforcing privacy related policies
            and procedures have not been designated.
         • EAC has not identified systems housing personally
            identifiable information or conducted related
            Privacy Impact Assessments required by OMB
            Memorandum 06-16.
         • EAC has not developed formal policies that
            address the information protection needs associated
            with personally identifiable information that is
            accessed remotely or physically removed.
9        Establish Controls to Ensure Audit and Accountability    EAC officials took action to correct this
                                                                  problem.
10       Restrict Access to Network Devices                       EAC officials took action to correct this
                                                                  problem.




    Leon Snead & Company, P.C.                            6
                                                                                 Attachment 2




                              U. S. ELECTION ASSISTANCE COMMISSION
                                OFFICE OF THE EXECUTIVE DIRECTOR
                                 1201 New York Avenue, NW, Suite 300
                                         Washington, DC. 20005



October 8, 2010


Memorandum

To:	       Arnie G. Garza
           Assistant Inspector General for Audits


From:	     Thomas R. Wilkey
           Executive Director

Subject: 	 Management Response to: Draft Audit Report – U.S. Election Assistance
           Commission Audit of Compliance with the Requirement of the Federal
           Information Security Management Act (FISMA) Fiscal Year 2010
           (Assignment No.I – PA-EAC-02-10).

The U.S. Election Assistance Commission (EAC) appreciates the opportunity to review the
draft report on the audit of the Federal Information Security Management Act (FISMA) for FY
2010. We have reviewed the draft report. Responses to the recommendations are provided
below.

As part of the audit, the auditor assessed whether EAC had taken action to address the issues
identified in fiscal year (FY) 2009 with EAC’s agency-wide IT security program. The review
indicated that EAC has corrected most of the significant issues but needs to implement corrective
actions in two major areas. The first area deals with the agency’s contingency planning and
testing. The second area involves the agency’s compliance with Personal Identification
Information (PII) and Privacy Act requirements.

The auditor rated contingency planning as in partial compliance since the plan was only recently
completed and has not yet undergone testing. EAC has developed its testing criteria for the plan
and will be in compliance with the control requirements once the tests are completed, results
analyzed, and necessary adjustments made to the plan.

The auditor also determined that PII regulations and Privacy Act requirements are in partial
compliance since additional actions are needed to bring the agency into full


Leon Snead & Company, P.C.	                    7
                                                                                  Attachment 2



compliance with Office of Management and Budget (OMB) requirements dealing with securing
PII data and certain requirements of the Privacy Act.


Auditor’s Recommendations:

       1.	 Assure that the testing and exercise of the recently completed EAC contingency plan
           is accomplished by the end of the calendar year. Update the plan based upon the
           results of the testing.
       2.	 Emphasize the completion of actions necessary to bring the EAC into full

           compliance with OMB PII regulations and Privacy Act requirements.



Management’s Response:

EAC is committed to establishing and maintaining an agency-wide program to provide
security for information and information systems that support the operations and assets of the
agency, including those systems managed by another agency or contractor. As part of this
effort, EAC hired an experienced Chief Information Officer (CIO) and developed,
documented, and implemented its agency-wide Information Security Program. We appreciate
the auditor’s acknowledging the significant progress made by EAC to resolve FY 2009
FISMA audit findings. Below is our response to FY 2010 FISMA audit recommendations.

       1.	 Management agrees with the recommendations to complete the EAC contingency
           plan by the end of the calendar year, and update the contingency plan based on the
           results of testing.
       2.	 Management agrees with the recommendation to bring the EAC into full compliance
           with OMB PII regulations and Privacy Act requirements. The agency plans to be in
           full compliance by the end of the calendar year 2010.


ccs:         Tom Heideman (via e-mail)
             Curtis Crider (via e-mail)
             Alice Miller (via e-mail)
             Mohammed Maeruf (via e-mail)




Leon Snead & Company, P.C.	                      8
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
